I

No.

IN THE
SUPREME COURT OF THE UNITED STATES
SSGT EDWARD STARLING - APPELLANT
VS.
JUDGE AMIT P. MEHTA -- APPELLEE
MOTION FOR LEAVE TO PROCEED AS A VETERAN
ON PAPERS PREPARED AS REQUIRED BY RULE
33.2 UPON RULE 40
The appellant asks leave to file this preceeding
above-captained motion for a timely writ of certiorari
to the United States District Court for the District
of Columbia on Petition For A Writ Of Mandamus without
prepayments of costs and to proceed as Counsel Pro Se.
Appellant has previously proceeded as Counsel Pro
Se in the following court(s) herein below:
A.

In The United States Tax Court;

B.

In The United States District Court for the
Middle District of Georgia, Macon Division;
before Tax Court Appointment of Special Trial
Judge/Chief District Court Judge; in a Dual
Capacity pursuant to Title 26, U.S.C., Secti­
ons 7441 and 7443A; to Re-Try 1100 Docketed
Cases already Adjudicated to Appellant; but
Tabled Payment Orders by Granting an Ex parte
Motion For Continuance with no-time-limit; as
well as Remanding the Re-Trial Results back
to the Tax Court for All Case(s) resolution
purposes;

C.

In The Eleventh Circuit Court of Appeals;

D.

In The United States District Court for the
District of Columbia;

No. :
Motion For Leave To Proceed As A Veteran,
Page 2 of 2 pages.
E.

In The Court Of Appeals for the District of
Columbia Circuit,

F.

In The Court Of Appeals for the Federal
Circuit, and

G.

In The Court Of Veterans Appeals.

Appellant's Motion For Leave To Proceed As A Veteran
is accompanied by an Affidavit setting o.ut the moving
party's veteran status.

m

5
SS
EDWARD STARLING
USAF RET
CERTIFICATE OF SERVICE
This certifies that a copy of the above and fore­
going Motion For Leave To Proceed As A Veteran was
served upon United States District Court Clerk in a
pre-postage paid envelope addressed to Clerk of the
Court for the District of Columbia, United States
Court House, 333 Constitution Avenue, N.W., Washington, D.C. 20001, on thisJ±_th_ day of March, 2020.
66

S’

SSGT EDWARD STARLING
USAF RET
Plaintiff-Appellant
Counsel Pro Se

AFFIDAVIT
IN SUPPORT OF MOTION FOR LEAVE TO PROCEED AS A VETERAN
I, SSG EDWARD STARLING, am the appellant-petitioner in
the attached-entitled case. In support of my motion to
proceed as a veteran from the payment of fees or court
costs, may proceed without prepayment of fees or costs
or furnish security therefor and may file a motion for
leave to proceed on papers prepared as required by Rule
33.2 upon Rule 40.
My setting out the moving party's veteran status is
that I was first required to Register with the Local
Draft Board upon graduation from High School; and was
summoned to The Fort Benning Army Post-Fort, Columbus,
Georgia in 1950 for assignment to The 97th Inf Div, but
was given relief for immediate medical problems of my
Mother who needed my care and support.
In 1952, I voluntarilly enlisted into the United
States Air Force and underwent Basic Training at Lackland
Air Force Base, San Antonio, Texas.
As an Airman-Third-Class, I attended Technical School
at Frances Air Base, Cheyenne, Wyoming, For Accounting
and Airways-And-Air Communications; and following com­
pletions; I was assigned to The 803rd Supply Squadron,
Stregit Air Command; but; after six (6) months afterbeing
there; the Fort Benning Army Commander was granted his
request to send me back to Post-Fort Benning as a SCARWAF
(Special Catagory Army With Airforce).
I did Active Duty in The States and Foreign Countries
in Europe, Puson Korea, and Vietnam War Zones and was
exposed to the Chemical Agent Orange and Other Gasses and
thereafter, was given An Honorable Discharge for Medical
Reasons.
Official copies of my TDRL Orders and thereafter, my
Permenant Retirement Orders are attached hereto; and I am
now a Totally Disabled American Veteran with a One-hundred
Percent (100%) Rated Disabled American Veteran.
I declare pursuant to the Penalty of Perjury that the
foregoing and within is True and Correct pursuant to
Title 28, U.S.C.A., Section 1746.

SSGT EDWARD STARLING
USAF RET

WILFORD HALL USAF HOSPITAL (WHHRD)
OFFICE OF THE STAFF JUDGE ADVOCATE
LACKLAND AFB, TX 78236
Reply to
Attn. Of:
Subj ect:

To:

Physical Evaluation Board
Official Records Department
PERMANENT RETIREMENT FINDINGS
SSgt Edward Starling
AF 1447 1464, 29 Jan 68
Retired:
(11 Mar 68)
DEPARTMENT OF VETERANS AFFAIRS
Atlanta Regional Office
730 Peachtree Street, N.E. 30365
ATTN:

Adjudications Officer

Dear Sir/Madam:
This is in response to your Certification-verication
Requests to the above-named subject.
The Order convening the Formal Hearing was called to
Order at 1044 hours, 29 Jan 68.
Voting Members of the Board present were: Jack S.
Jenkins, Col., President; Herbert T. Clough, Jr • / Col.(MC)
Medical Member; Joseph A. Schiefen, Jr • / Major, Personnel
Member; and Myself, Word L. Gidden, Lt.Col., USAF, JAG, to
represent the Rights of SSgt Edward Starling before the
Board.
The Personnel Member then submitted into evidence papers
pertaining to the Case marked as exhibits "A" through "F", as
applicable, in accordance with AFM 35-4, for service-connection
disabilities sustained by SSgt Edward Starling in line of duty
for: Lower Back, Hip and Spinal Nerve Center Columns in 1953,
at Wiesbaden Air Base, Germany (supported by Official Accident
Report done by Lt. Col.J.P. Ryan, Materials Officer, and USAF
Dispensary-Hospital Medical Treatment Records).
Residual Head Trauma sustained by falling 50 Cal.USAF F86-D Metal Gunnary Rack (supported by Official Accident Report
from Major C. E. Yeager, Commander, 50th Ftr.Bmr. Wing, Hahn
Air Base, Germany in 1954).
Both of these sustained service connected disabilities
occurred in line of duty during peace time but while SSgt
Edward Starling was entitled to receive active duty pay. They
can be seen at exhibits "A" and "B", attached.
-1 -

The disabilities for Diabetes Mellitus, type II;
Tinnitus; Heart Disease(s); and Leg Wounds (from metal frag­
ments explosures while on Med Evac Duties), were all sustained
by SSgt Edward Starling while in the Republic of Vietnam in
1966, while he was deployed by Special Order Amendment Return
to Active Duty for six (6) months TDY Status pursuant to Title
10, US Code, Thomas A. Goodman, Wilford Hall USAF Hospital,
San Antonio, Texas, who controlled all activities of SSgt
Edward Starling from 1964 through 1968.
All of these Four (4) described injuries sustained by
SSgt Edward Starling in 1966 were supported by the Official
Records from the Charlie Field Hospital, Doctor O.B. Long, MC,
Bien Hoa Air Base, Vietnam, while dispensing Toxic Agent Orange
and Other Deadly Herbicides by both from the air and on the
ground, at ongoing Combat Targeted Cites activities.
These Four (4) service connected disabilities sustained
by SSgt Edward Starling occured while in line of duty and were
as a direct result of armed conflict or caused by an instru­
mentality of war and incurred in line of duty during period
of was.
Because no objections were made by any of the voting
members of the board, the united Decision was accepted as both
Certification and Verification of All Claims, "A" through "F"
as service connected disabilities submitted by Personnel Officer
Joseph A. Schiefen, Jr., Major, on behalf of SSgt Edward
Starling's Claims.

Disability Ratings were, therefore, established at TenPercent (10%), initially, for each of the Six (6) Disability
Claims for service connected active duty activities, in addition
to SSgt Starling's theretofore Mental Disability service conn­
ected Claim.
The Records for these Four (4) Claims can be viewed at
exhibits "C" through "F".

WORD L. GIDDEN, LT COL USAF JAG
20 MAR 70
Enclusions:
1.
2.

Copy of Hearing Transcript, and
Copies of Medical and Treatment
W/Accident Reports Records.

-2-

HEADQUARTERS
USAF SPECIAL OPERATIONS SQUADRON
BIEN HOA AIR BASE
4TH APO, Republic Of Vietnam
SPECIAL ORDERS
NUMBER TD-2178

7 August 1966

1. SSGT EDWARD STARLING, AF14471464, (CAFSC 64570)
(September 66 Returnee) ASSIGNMENT: Relieved from Assignment
this Organization, this Station, Assigned to Willford Hall
United States Hospital, (WHHRD), (COMMAND), (AFPMARXL), San
Antonio, Texas.
REPORTING DATE: No DALVP. Leave Address: Ward # 4, Willford
Hall USAF Hospital, San Antonio, Texas. Sergeant will depart
this Station on or about 29 September 1966. Report to the
Military Air Transport Service (MATS) Liaison Officer, TAN SON
NHUT Air Base, Saigon, Vietnem not later than 30 September 1966
for Transportation to ZI. Sergeant will report to Connecting
Passenger Services Directive Officers, as Scheduling Connecting
Routes for Departure Times dictate, under AMD:
(As Applicable).
Sergeant will Report,to: THOMAS A. GOODMAN, CAPT, USAF, MD, MC,
Willford Hall USAF Hospital (WHHRD), Lackland Air Force Base,
San Antonio, Texas, (DIRECTLY), upon Arrival ZI from the MATS
Officers at Kelly Air Force Base, San Antonio, Texas.
EDCSA: 1 November 1966.
GENERAL INSTRUCTIONS: All AFM and AFR Compliances, including
the Sergeant's New Address as Authorized by the Willford Hall
USAF Hospital STAFF,, GRADE, FULL NAME, AFSN, (IN FULLY COMPL­
IANCE ), are Authorized by the Willford Hall USAF Hospital
(WHHRD), Specifically Assigned Doctors, Lackland Air Force
Base, Texas, are Authorized by Title 10, U.S.Code Annotated,
for THEIR TDRL PEB Board's Final Evaluation Ratings on All
Issues involved concerning the Seargent's Final Disposition
Decisions with regards to his Future.
FOR THE COMMANDER:
e .
*0-

DISTRIBUTION '
Nr. Cys to all Ind • /
Pmp, gaining Org • /
6962nd Seq. Sqn.,
USAFSS, & Willford
Hall USAF Hospital
Command..
res

' SIMPSON
Captain, USAF
Administrative Officer

cr*‘v -

RETIREMENT ORDER
DATE

22 JAN 6ri

DEPARTMENT OF THE AIR FORCE

SPECIAL ORDER NUMBER

WASHINGTON

OQft

SERVICING CBPO

STAFF SSiX-SAMT I3TA2LIKG, EDWARD
AIR FORCE CliYFIOLOGIC DEPOT, USAFSS
SAM AMTOFTCR TEXAS
78241

AF14471464

MAILING ADDRESS

C/0 A» C. WILLIAMS
130 ANDEiiSQM. SAP AM TOR 10 f. TEXAS

REMARKS

EFFECTIVE ON DATE INDICATED, YOU ARE:
I T I Relieved from above assignment, organization, and station and from active duty.
I

I Retired per authority cited and in grade specified.

I X I Placed on the temporary disability retired list in grade specified.
I

I Removed from the temporary disability retired list and retired in grade specified.

|_2_j To proceed as authorized. PCS. TDN. 5753500 325 P5 78.01-02.S503725 2112 2122 21 32
2220 2230 2293 2295.
SDN

270

I

DATE RELIEVED FROM ACTIVE DUTY

DATE RETIRED

02 FEB 65

03

SECTION OF TITLE 10, USC

P3B

GRADE IN WHICH RETIRED

1202

65

£5

HIGHEST GRADE HELD ON ACTIVE DUTY
ACTIVE SERVICE FOR RETIREMENT
MONTHS

YEARS

DAYS

07

12

SERVICE PER SECTION 8888
OR 8927, TITLE 10, USC
YEARS

MONTHS

SERVICE FOR BASIC PAY
YEARS

DAYS

MONTHS

0?

12

24

24

YEARS

MONTHS

16

25

SERVICE PER SECTION 1405
TITLE 10, USC
DAYS

DATE OF BIRTH

SERVICE PER SECTION 1333,
TITLE 10, USC
DAYS

JUK

32

COMPENSABLE PERCENTAGE
OF PHYSICAL DISABILITY

YEARS

50
RESERVE GRADE AND SERVICE NUMBER

PROCEED TO HOME OF
SELECTION

RECORD OR
ENTRY ON A0

DISABILITY INCURRED IN COMBAT
OR INSTRUMENTALITY OF WAR

ASSIGNMENT
RET. RES. $EC.

INACTIVE (iSLRS)

K0
BY ORDER OFTHE SECRETARY OFTHE AIR FORCE

&
%

O'

i't

Ca /

I

*

3
CURTIS E. LeMAY

OFFICIAL

% 7»s

I

Chief of Staff

u. 5.

R.J. PUGH
Colonel, USAF
Director of Administrative Services
DISTRIBUTION
C - OFFICERS
0 - AIRMEN

FORM

AFHQ

0-124
MAY 64

REPLACES AFHQ 0*940 THRU 0-945, 0-947 THRU 0-949, 0-954 AND 0-955 WHICH ARE OBSOLETE

